1

NoJJo- / 7
In the

Jiupreme (Etmri of tlje

^izxits

Hozie Rowell, petitioner
V.

Police Officer Joan Ferreira, Sergeant Shane
Killilea and Lieutenant Christopher Popovic,
individually and in their official capacities
PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

PETITION FOR WRIT OF CERTIORARI
4
>

■-i

'

Cyrus Joubin
Counsel of Record

.A

4

'.1C

43 West 4.3rd Street
New York, NY 10036
cyrus.joubin@gmail. com
(703) 851-2467

CURRY & TAYLOR ♦ (202) 350-9073

oc/li (Zf

I

QUESTION(S) PRESENTED
Did the court of appeals contravene Batson v.
Kentucky, 476 U.S. 79 (1986) when in affirming the
peremptory striking of the only qualified AfricanAmerican on the jury panel it wrongly focused on
whether defense counsel had credibly described the
juror’s physical movements instead of whether the
juror’s physical movements had truly motivated defense
counsel to strike this juror?

in

TABLE OF CONTENTS
Page
Question(s) Presented......

i

Parties to the Proceeding

11

Statement of Related Cases

ii

Table of Authorities

V

Opinions Below

l

Jurisdiction

l

Relevant Provisions Involved

2

Statement

4

Reasons for Granting the Petition

12

Conclusion

22

Appendix
The court of appeals’ Summary Order affirming the
district court’s denial of petitioner’s motion for a
new trial based upon its decision to credit
respondents’ allegedly race-neutral explanation for
striking peremptorily the only African-American
juror on the panel ...................................................

la

The Opinion and Order of the district court denying
petitioner a new trial motion based upon
respondents’ failure to adduce a race-neutral
explanation for striking peremptorily the only
African-American juror on the panel as required by
Batson v. Kentucky, 476 U.S. 79 (1986) ...................

6a

The Order of the court of appeals, dated January 26,
2021, denying petitioner’s petition for rehearing or,

V

TABLE OF AUTHORITIES
‘PSgU

Cases
Anderson v. Bessemer City, 470 U.S. 564,573
(1985)...........................................................................
8
Barnes v. Anderson, 202 F.3d 150,157 (2nd Cir.
1999)...................................................... .....................
17
Batson v. Kentucky, 476 U.S. 79 (1986)................. PASSIM
DOLPHY v: Mantello, 552 F.3RD 236,239 (2ND
Cir. 2009)....................................................... ............
18
Edmonson v. Leesville Concrete Co., 500 U.S.
614,621-625...................................
17
Flowers v. Mississippi,__ U.S.
139 S.CT.
2228,2244 (2019)...........................
9,11,18
Foster v. Chatman, 578 U.S.__ , 136 S. Ct. 1737,
1754 (2016).................................................................. 17,18,19
Georgia v. McCollum, 505 U.S. 42,59 (1992).........
17
Hernandez v. New York, 500 U.S. 352,355 (1991)
17,18
J.E.B. v. Alabama ex rel. T.B., 511 U.S. 127,129
(1994)...........................................................................
17
Jordan v. Lefevre, 206 F.3rd 196,201 (2nd Cir.
1999).... ........................................................................
19
Miller -El v. Cockrell, 537 U.S. 322,339 (2003).
18
Miller-El V. DRETKE, 545 U.S. 231,239 (2005).. 17,18,19,20
PURKETT V. Elem, 514 U.S. 765,769 (1995) (PER
CURIAM)....................................................................
18
Snyder v. Louisiana, 552 U.S. 472,485 (2008)
17,18
Swain v. Alabama, 380 U.S. 202,223(1965).....
16
Statutes
28U.S.C.
28 U.S.C.
28 U.S.C.
28 U.S.C.
28 U.S.C.
42 U.S.C.

§ 1254(1)....
§ 1331........
§ 1343(a)(3)
§ 1367(a)....
§ 2101(c)....
§ 1983........

2
3,5
3
6
2
3,5

1
OPINIONS BELOW
The unpublished Summary Order of the United
States Court of Appeals for the Second Circuit in Hozie
Rowell v. Joan Ferreira et al., C.A. No.19-3469, decided
and filed December 10, 2020, and reported at 839 Fed.
App’x 698 (21Kl Cir. 2020), affirming the district court’s
denial of petitioner’s new trial motion based upon the trial
judge’s decision to credit respondents’ allegedly raceneutral explanation for striking peremptorily the only
African-American juror on the jury panel, is set forth in
the Appendix hereto (App. 1-5).
The unpublished Opinion and Order of the United
States District Court for the Southern District of New
York in Hozie Rowell v. Joan Ferreira etal., C.A. No. 16cv-6598 (AJN), filed September 19,2019, and reported at
2019 WL 4509048 (S.D.N.Y. 2019), denying petitioner’s
new trial motion based upon respondents’ failure to
adduce a race-neutral explanation for striking
peremptorily the only African-American juror on the jury
panel as required by Batson v. Kentucky, 476 U.S. 79
(1986), is set forth in the Appendix hereto (App. 6-19).
The unpublished Order by the United States Court
of Appeals for the Second Circuit in Hozie Rowell v. Joan
Ferreira et al., C.A. No.19-3469, dated January 26, 2021,
denying petitioner’s petition for rehearing or, in the
alternative, for rehearing en banc, is set forth in the
Appendix hereto (App. 20).
JURISDICTION
The unpublished Order by the United States Court
of Appeals for the Second Circuit in Hozie Rowell v. Joan

2

FeiTeira et al., C.A. No.19-3469, denying petitioner’s
petition for rehearing or, in the alternative, for rehearing
en banc was filed on January 26, 2021 (App. 20).
In addition, on March 19, 2020, in light of the
ongoing public health emergency caused by COVID-19,
this Court issued an Order extending the deadline for the
filing any petition for writ of certiorari due on or after
March 19,2020, for 150 days from the date of the court of
appeals’ order denying a timely filed petition for
rehearing.
This petition for writ of certiorari is filed within
the time allowed by this Court’s rules, 28 U.S.C. § 2101(c),
and by this Court’s Order of March 19, 2020.
The jurisdiction of this Court is invoked pursuant
to the provisions of 28 U.S.C. § 1254(1).

RELEVANT PROVISIONS INVOLVED
United States Constitution, Amendment V:
No person shall...be deprived of life, liberty, or
property, without due process of law....
United States Constitution, Amendment VII:
In Suits at common law, where the value in
controversy shall exceed twenty dollars, the right
of trial by jury shall be preserved, and no fact tried
by a jury, shall be otherwise reexamined in any
Court of the United States, than according to the
rules of the common law.

3
28 U.S.C. § 1331:
The district courts shall have original jurisdictn of
all civil actions arising under the Constitution,
laws, or treaties of the United States.
28 U.S.C. §§ 1343(a)(3) & (4):
(a) The district courts shall have original
jurisdiction of any civil action authorized by law to
be commenced by any person:
(3) To redress the deprivation, under color of any
State law, statute, ordinance, regulation, custom or
usage, of of any right, privilege or immunity
secured by the Constitution of the United States
or by any Act of Congress providing for equal
rights of citizens or of all persons within the
jurisdiction of the United tates;
(4) To recover damages or to secure equitable or
other relief under any Act of Congress providing
for the protection of civil rights, including the right
to vote.
Civil Rights Act-42 U.S.C. § 1983:
Every person who under color of any statute,
ordinance, regula-tion, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of
the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party

4
injured in an action at law, suit in equity, or other
proper proceeding for redress....
STATEMENT
On June 5, 2014, petitioner Hozie Rowell
(“petitioner”) was a 55-year-old African-American man
living with his wife and her granddaughters in an
apartment located in a housing community in Harlem,
New York City, controlled by the New York City
Housing Authority. In the twenty years petitioner and
his wife had lived there, there had been no illicit drug
activity of any kind carried on inside their apartment or
even associated with their home. In fact, petitioner as an
active community member fought to keep his building
free of drug activity; and he was also a vocal critic of
certain unethical police officers in the neighborhood,
resulting in discipline for some of these officers.
In response to petitioner’s criticism of police
officers, respondents Police Officer Joan Ferreira
(“respondent” or “Ferreira”), Sergeant Shane Killilea
(“respondent” or “Killilea”) and Lieutenant Christopher
Popovic (“respondent” or “Popovic”), all police officers
employed by the New York City Police Department,
executed a plan to raid petitioner’s home, arrest him and
prosecute him for possession of drugs. To this end,
Ferreira and Killilea obtained a search warrant from a
Judge of the New York County Criminal Court based
upon a fabricated affidavit of probable cause.
At 5:30 in the morning of June 5,2014, respondents
together with other police officers executed the warrant
and searched petitioner’s home without discovering any
drugs or other evidence of illegal activity. In order to

5
justify their search, Killilea left petitioner’s apartment,
entered an unmarked vehicle and drove off, returning to
petitioner’s home fifteen minutes later. He then entered
petitioner’s bedroom and announced that he had found
cocaine in plain view on petitioner’s dresser together with
zip-lock bags (used by petitioner as packaging in his
jewelry business) in a drawer, evidence respondents
claimed was of drug dealing.
Petitioner was arrested and charged with
criminally using drug paraphernalia and criminal
possession of a controlled substance, both misdemeanors
under New York Penal Law. Over the course of nineteen
months, petitioner appeared numerous times in New
York County Criminal Court incident to these charges.
On January 21, 2016, the prosecution of petitioner was
dismissed based on speedy trial grounds.
Later in 2016, petitioner brought this civil rights
action in the federal district court for the Southern
District of New York under 42 U.S.C. § 1983 against
respondents as well as the City of New York. Positing
jurisdiction on 28 U.S.C. §§ 1331 and 1343(a)(3) & (4), he
claimed that respondents in their individual and official
capacities had carried out an unlawful search, fabricated
evidence and falsely prosecuted him for illegal drugactivity, violating his civil rights. He alleged that
respondents had also committed the torts of false arrest,
malicious prosecution, and using excessive force in
conducting their search; and that Killilea had violated his
right to a fair trial. Finally, he claimed that Ferreira and
Popovic each failed to intervene on his behalf to prevent
the violation of his constitutional rights even though they
had a realistic opportunity to do so.

6
Invoking the district court’s supplemental
jurisdiction under 28 U.S.C. § 1367(a), petitioner further
alleged that respondents committed analogous torts
under New York state law arising from the same facts.
He further claimed that the City of New York was liable
for respondents’ misconduct under theories founded upon
its negligent hiring/training/retention of these officers or
via respondeat superior. He demanded a jury trial, sought
compensatory as well as punitive damages and an award
of his attorney’s fees under 42 U.S.C. § 1988.
On February 25,2019, a four-day trial commenced
on petitioner’s claims that Killilea denied him a fair trial
by fabricating evidence and that Ferreira and Popovic
each had failed to intervene to prevent the violation of his
constitutional rights by properly supervising Killilea even
though they had a realistic opportunity to do so. During
jury selection, after all challenges for cause were made,
the panel of remaining fourteen qualified jurors included
one African-American male, Juror No. 12 (“Juror No. 12”)
(App. 8 ). Petitioner, his wife and their two
granddaughters—all of whom testified at trial-—are also
African-American while none of respondents or their
witnesses was African-American.
Before peremptory challenges to these jurors were
exercised, one of respondents’ trial attorneys (Ms. Alison
Mitchell) told the trial judge that she had observed Juror
No. 12 “during the course of [the Court’s] reading [a]
summary of the case, shaking his head and reacting
physically in some way” (App. 8-9). Because “no one else
reported having witnessed these movements by Juror No.
12,” the trial judge asked Ms. Mitchell to describe what
she saw. She replied that during the trial court’s
summary of the case, he “lean[ed] back in the chair and

7
tilt[ed] his head back and his eyes rolled back, and his
head, with his head aown, and ne shook his head back and
forth, side to side” (App. 9). She added: “And again, I do
not know if that reaction was in favor of plaintiff or in
defendants’ favor....I don’t know what the reaction was; so
that’s why we sought to clarify and question from Your
Honor.”
Over petitioner’s objection, the trial court inquired
of this juror “that an attorney witnessed him shaking his
head during [the Court’s] reading of the summary of the
case and wanted to confirm if he had...anything that he’s
heard about the case and wanted to confirm if he
had...anything that he’s heard about the case that he
thought would interfere with his ability to be fair and
impartial” (Id.). Juror No. 12 answered unequivocally
“No” and that he had no concerns” (Id.). Neither party
requested any additional follow-up questions for this
juror (Id.).
Upon the trial court’s questioning of each member
of the venire, Juror No. 12 indicated that he had
previously served as a juror on three previous occasions.
Juror No. 8, a white woman who was ultimately selected
as a juror, had also previously served on a jury. Neither
party requested any follow-up questions to these jurors
about their prior jury service.
Respondents then exercised one of their three
peremptory strikes on Juror No. 12. Petitioner challenged
this peremptory strike under Batson v. Kentucky, 476
U.S. 79 (1986), asserting that respondents had struck the
only African-American on the jury panel (Id). In Batson,
the Court set forth the three-step procedure to assess
whether an attempt to strike peremptorily a black juror

8
is based on invidious discrimination in violation of the
Equal Protection Clause. First, petitioner must establish
that he is a member of a cognizable racial group and that
opposing counsel is exercising a peremptor}^ challenge to
remove from the venire a member of petitioner’s race; if
the facts and all other relevant circumstances raise the
inference that opposing counsel is using the peremptory
challenge “to exclude [a] veniremen from the petit jury on
account their race,” a prima facie showing of
discrimination has been made. Id. at 96.
Once petitioner makes this showing, respondents’
counsel must come forward with a neutral explanation for
challenging the black juror. Id. at 97. While it may not
amount to a challenge for cause, it cannot rest on the
juror’s race and it cannot consist of merely a denial of a
discriminatory motive. Id. at 97-98. Instead, respondents’
counsel at this second step “must articulate a neutral
explanation related to the particular case to be tried.” Id.
at 98. In an accompanying footnote, the Batson Court
explained that counsel must give “a clear and reasonably
specific” explanation of his legitimate reasons” for
exercising the challenges.” Id. at n. 20 quoting Anderson
v. Bessemer City, 470 U.S. 564, 573 (1985).
The trial judge at the third step then has the duty
to determine if petitioner has demonstrated purposeful
discrimination by a preponderance of all the evidence. Id.
The trial judge’s findings in this context “largely will turn
on evaluation of credibility...,” id. at n. 21, i.e., is the
neutral explanation proffered by counsel for the challenge
credible when based upon all the facts and circumstances
attendant to the trial at hand? As the Court later
amplified, during this third step,“[t]he trial judge must
determine whether the [proponent’s] proffered reasons

\

/

9
are the actual reasons [for the strike], or whether the
proffered reasons are pretextual and the [proponent]
instead exercised peremptory strikes on the basis of
race.” Flowers v. Mississippi,___U.S.___ ,___; 139 S.Ct.
2228, 2244 (2019).
Faced with petitioner’s Batson challenge to the
peremptory striking of Juror No. 12, the trial judge first
found that petitioner who is African American had made a
prima facie showing that this juror was struck because of
his race since he was the sole juror who appeared to be
African American and had given no answers which raised
concerns about his impartiality (App. 10). In response to
the court’s request to explain their strike, respondents’
other trial counsel (Ms. Speight), after first admitting that
Juror No. 12 was African American, then questioned
whether he was black at all:
MS. SPEIGHT: We actually don’t know if he is
African-American. He is a male with brown skin.
There is a woman sitting next to him who also
appears to have brown skin.
So if the suggestion that he is definitely AfricanAmerican and we struck him on that basis, is
unfair because he could be any number of-—
THE COURT: He is black.
MS. SPEIGHT: He has brown skin, but he could
be Dominican. He could be any number of things.
We don’t know. We didn’t ask. We don’t have any
basis to reach that conclusion just by seeing him.
He has a complexion that could be AfricanAmerican. It could be any number of things.
(Tr. at 27:14-28:4).

10
When asked again to explain the strike, Ms.
Speight proffered various justifications: (1) Juror No. 12’s
head movements during the trial court’s summary of the
case; (2) his failure to respond “Yes” to general panel
questions; (3) his prior service on three other juries; and
(4) because when questioned privately, he did not
acknowledge his physical movements which Ms. Mitchell
said she saw and he did not say that he had any particular
feeling about the case (App. 11).
Petitioner’s counsel responded by noting that
Juror No. 8, a white woman who had served previously as
a juror, was not stricken by respondents despite her prior
jury service; and he found “problematic” that
respondents’ attorney continued to deny that Juror No.
12 was “clearly African-American or black.” Ms. Speight
responded that making generalizations based on skin
color is “presumptive” and that it was “absurd...to say
that [Juror No.' 12] has a dignified background and no
qualifications that are not dignified that would exclude
him.”
Despite being “troubled” and “concerned,” the trial
judge concluded that respondents had given a credible,
race-neutral basis for the strike, i.e., Juror No. 12’s head
movements,“based on Ms. Mitchell’s demeanor” (App. 1112). As she saw it, petitioner had not carried his burden of
proof of demonstrating purposeful discrimination by a
preponderance of the evidence “in light of ‘counsel’s
representation made to this Court, as an officer of the
court, with obviously very serious repercussions if
anything she said to me was not true’” (App. 12). The trial
judge thus found respondents’ counsel’s explanation to be
a “credible representation about Juror No. 12’s behavior,”
ignoring the totality of the circumstances, some

11
suspicious, which surrounded respondents’ strike (Id. )
(emphasis supplied)7J3he therefore denied petitioner’s
Batson challenge (Id.).
On February 28, 2019, the jury returned with a
verdict in respondents’ favor on petitioner’s three claims
that Killilea denied him a fair trial by fabricating evidence
and that Ferreira and Popovic each had failed to
intervene to prevent the violation of his constitutional
rights (App. 7). Due to administrative delay, judgment
did not enter until June 4,2019 (Id.).
On June 21, 2019, petitioner sought a new trial
under Fed. R. Civ. P. 59(a) claiming inter alia that the
trial judge erroneously denied his Batson challenge to
respondents’ striking of Juror No. 12 prior to the taking
of evidence (App. 6;8-12). The district court denied the
motion in an Opinion and Order on September 19, 2019,
once again relying solely on respondents’ counsel’s
credible representation about Juror No. 12’s physical
movements and once again overlooking the totality of
circumstances supporting petitioner’s claim that this
strike was based on race (App.11-12 ). As the trial judge
wrongly concluded, “[t]he central issue was whether Ms.
Mitchell’s representations regarding Juror No. 12’s head
movements were credible” (App. 11).
Petitioner appealed and on December 10,2020, the
court of appeals unanimously affirmed the district court’s
ruling in a Summary Order (App. 1-5). The Panel found
“no basis to disturb the district court’s decision to credit
[respondents’] race-neutral explanation concerning the
juror’s physical movements” (App. 3-4). Nor did it
determine that the district judge failed to consider the

12
totality of the circumstances in denying petitioner’s
Batson challenge (App. 4).
Even though the trial judge had concluded only
that “a credible, race-neutral reason [had] been proffered”
for the strike, this was sufficient under the Circuit’s
precedents (Id.) (emphasis in original) . As it explained,
the trial judge need not engage in a “talismanic recitation
of specific words,” and she unambiguously rejected the
challenge with sufficient clarity to show that petitioner
had failed to carry his burden to show that respondents’
proffered race-neutral explanation was pretextual (Id.).
On January 26, 2021, the court of appeals denied
petitioner’s petition for rehearing or, in the alternative,
for rehearing en banc (App. 20).
REASONS FOR GRANTING THE PETITION
The Court Of Appeals Contravened Batson v.
Kentucky, 476 U.S. 79 (1986) When In Affirming The
Peremptory Striking Of The Only Qualified AfricanAmerican On The Jury Panel It Wrongly Focused On
Whether Defense Counsel Had Credibly Described
The Juror’s Physical Movements Instead Of Whether
The Juror’s Physical Movements Had Truly
Motivated Defense Counsel To Strike This Juror.
“[B]ased on [respondents’ counsel’s] demeanor”
and the “very serious repercussions” if her
representations to the court were not true, the trial judge
concluded at step three of the Batson inquiry that trial
counsel’s description of Juror No. 12’s head movements
was a “credible representation about Juror No. 12’s
behavior,” and for this reason alone denied petitioner’s

13
challenge under Batson to respondents’ peremptory
striking of this black juror (App. 11-12). As she wrongly
concluded, “[t]he central issue was whether Ms. Mitchell’s
representations regarding Juror No. 12’s head
movements were credible” (App. 11). In so ruling, the
district judge contrary to her duty under Batson failed to
consider the totality of the circumstances surrounding the
strike in order to determine whether it was based on race.
First, the district court answered the wrong
credibility question, i.e., the one which focused on
whether defense counsel had credibly described the
juror’s head movements. Instead, under Batson, the
crucial credibility question is whether this juror’s head
movements truly motivated defense counsel’s striking of
that juror, whether those head movements were the
actual reason for the strike and whether this reason was
pretextual in that it was an excuse to strike this juror
because of his race. That respondents’ counsel credibly
described the juror’s head movements answers none of
these crucial inquiries under Batson’s third step and fails
to fulfill that decision’s promise to prevent discrimination
based on race in the selection of jurors.
Second, the district judge failed to assess the
totality of the circumstances surrounding the striking of
Juror No. 12, as Batson requires, circumstances which
support the inference that Juror No. 12’s physical
movements were not the real reason for respondents’
strike but rather a pretext for purposeful discrimination.
They are: (1) counsel’s remarkable denial of Juror No. 12’s
race as African American after she had already admitted
this fact and when it was clear to the judge that “[h]e is
black;” (2) their questionable reliance on his prior jury
service as a reason to strike while at the same time

14
refusing to strike Juror No. 8, a white woman, because of
her prior jury service; (3) their failure to inquire of Juror
No. 12 about his prior jury service, a purported reason for
striking him; (4) their counsel’s statements evincing
unfounded hostility toward Juror No. 12, suggesting at
one point that there was something nefarious or
“undignified” about his background as a reason to strike
him; (5) their reliance on his failure to answer “Yes” to
questions seeking bias and his denial of personal feelings
about the case, both indicia of neutrality and fairness
rather than reasons for striking him; and (6) their reliance
on his failure to acknowledge the physical movement
observed by counsel when he was never asked about his
'physical movement(s) .
All these relevant circumstances substantially
undermined respondents’ claim that Juror No. 12’s
physical movements had truly motivated defense counsel
to strike this juror. The trial court contravened Batson by
refusing to harmonize these circumstances with its
analysis, resting its denial of petitioner’s Batson motion
instead on the sole reason that respondents’ counsel had
credibly described Juror No. 12’s physical movements.
That defense counsel’s description of Juror No. 12’s
physical movements is credible does not mean it was the
motivating factor for the peremptory strike and by
conflating these two concepts of a race-neutral
description with a race-neutral motivation while ignoring
circumstances of a purposeful design to discriminate is
clear error undermining Batson and denying petitioner
the equal protection of the laws.
That the trial court later found in its Opinion and
Order that it “took all of the circumstances into account”
does not excuse the reality that it failed to do so both at

15
trial and upon deciding the new trial motion. Each ruling
was bereft of any analysis of the circumstances which led
it to believe that Juror No. 12’s movements were the
authentic reason for the strike, the very core of Batson’s
third-step inquiry. The six aforementioned circumstances
supporting the inference of pretext were left entirely
unaddressed by the trial court, leaving the record
unmistakably clear that it had overlooked these
important facts germane to the motivation inquiry under
Batson’s third step, i.e., whether Juror No. 12’s physical
movements truly motivated respondents’ peremptory
strike.
The court of appeals ratified the lower court’s
flawed decisionmaking when it affirmed the “district
court’s conclusion] that ‘a credible, race-neutral reason
[had] been proffered’ for the strike” and was thus
sufficient under Batson (App. 4). This ruling is infirm for
the same reason as the ruling by the district court, i.e., it
erroneously focuses only on whether defense counsel had
credibly described Juror No. 12’s head movements while
ignoring the crucial inquiry under Batson’s third step of
whether this juror’s head movements had truly motivated
defense counsel to strike this juror, whether those head
movements were the actual reason for the strike and
whether this reason was merely an excuse to strike this
juror because of his race.
Because neither court faithfully executed Batson’s
third-step adjudication aimed at ferreting out
discrimination based on race in the selection of jurors, the
court of appeals “has decided an important question of
federal law that has not been, but should be, settled by
th[e] Court, or has decided an important federal question

c
18
all the evidence with a bearing on it.” Id. citing Batson,
476 U.S. at 96-97 and Miller -El v. Cockrell, 537 U.S. 322,
339 (2003) (emphasis supplied). See Snyder, 552 U.S. at
478.
As the Miller-El Court noted, central to Batson is
the idea that the trial judge will closely scrutinize the
authenticity of the proponent’s reason(s) for the strike by
measuring it not just by its objective reasonableness but
rather by its subjective genuineness measured by the
totality of the relevant circumstances in the case, factors
which may raise an inference of purposeful discrimination.
545 U.S. at 239-240. Accord, Flowers v. Mississippi,___
U.S.
139 S. Ct. 2228,2244 (2019) citing Foster v.
Chatman, 578 U.S. at
136 S. Ct. at 1754.
In this sense, a “legitimate reason” for a challenge
is not one “that makes sense;” it means a reason that does
not deny the equal protection of the laws. Purkett v.
Elem, 514 U.S. 765, 769 (1995) (per curiam) citing
Hernandez v. New York, 500 U.S. at 359. Only a rigorous
examination of the relevant circumstances where the
credibility of the proponent’s reason(s) for the strike is
truly tested will discover the difference between a raceneutral excuse and a design to discriminate.
Circumstances relevant to measure the credibility
of a proponent’s reason(s) for the strike include the
demeanor of the attorney proponent (Flowers, supra;
Snyder, 552 U.S. at 477); the juror’s demeanor (Snyder,
supra); how reasonable or how improbable the
proponent’s explanations are (Flowers,
U.S. at
139 S. Ct. at 2250; Foster, 578 U.S. at _ .; 136 S. Ct. at
1753; Snyder, 552 U.S. at 482 n. 1; Dolphy v. Mantello, 552
F.3rd 236, 239 (2ml Cir. 2009)); the questions and answers

19
during voir dire examination of the jurors (Miller-El, 545
UTS. at 252-253; Batson,U.S. at 97); statistical data of
peremptory strikes used against black jurors (Miller-El,
545 U.S. at 241; 265); comparative juror analysis for
disparate treatment (Miller-El, 545 U.S. at 248; Foster,
578 U.S. at
.; 136 S. Ct. at 1754; Jordan v. Lefevre, 206
F.3rcl 196, 201 (2ml Cir. 1999)); and the quantity and
quality of questions posed to juror(s) sought to be
stricken (Miller-El, 545 U.S. at 255).
The totality of the relevant circumstances in this
case— all of them left entirely unaddressed by either
court below—show by a preponderance of the evidence
that respondents’ striking of Juror No. 12 was truly
motivated by a purposeful design to discriminate on the
basis of race. The demeanor of the attorneys proposing
the strike became antagonistic and then hostile toward
Juror No. 12 for no reasons on the record. Seeing head
movement by this juror which no one else saw, Ms.
Mitchell intuited a precarious correlation between this
movement and his fitness for jury duty in this civil rights
case; and Ms. Speight escalated the challenge by first
admitting that he was African-American, then denying
this known fact that “[h]e is black,” and finally insinuating
that there may be something nefarious or “undignified”
about his background as a reason to strike him. All this
combative demeanor, including the very denial of Juror
No. 12’s race, bespeak spur-of-the-moment invention
rather than serious forethought founded on observable
facts.
Their stated reasons for the strike similarly “reek
of [pretextual] afterthought,” Miller-El, 545 U.S. at 246;
250. They were ultimately inconsistent, improbable and
hard to fathom on this record. The juror’s head

20
movements alone were inconclusive and were never
shown to be probative of prejudgment or bias, especially
in view of Juror No. 12’s assertion upon questioning by
the judge that he could fairly and impartially serve as a
juror in this case. His failure to answer the general panel
questions and his prior jury service were innocuous,
benign factors which cut neither way in finding a route to
disqualify him; and his failure to acknowledge the
physical movement observed by counsel ring hollow when
he was never asked by counsel or the court about his
physical movement. Id., 545 U.S. at 250 n. 8 (“[T]he failure
to ask [follow-up questions] undermines the
persuasiveness of the claimed concern.”).
Moreover, his prior jury service could not
reasonably have presented a genuine cause for striking
him in view of the fact that respondents refused to strike
Juror No. 8, a white woman, because of her prior jury
service; and when given the opportunity, defense counsel
never asked him about his prior jury service or its effect
on his asserted ability to fairly and impartially hear the
evidence. See id. at 241 (“If a...proffered reason for
striking a black panelist applies just as well to an
otherwise-similar nonblack [panelist] who is permitted to
serve, that is evidence tending to prove purposeful
discrimination.”).
In the meantime, Juror No. 12’s demeanor was
unremarkable. His unchallenged assertion of fairness and
impartiality and his denial of personal feelings about the
case presented persuasive indicia of neutrality and
fairness instead of reasons for striking him. As for a
statistical analysis of peremptory strikes used against
black jurors on this venire, it was 100%, owing to the fact
that Juror No. 12 was the only African American on this

21
panel. Respondents peremptorily challenged 14% of the
qualified nonblack panelists. In addition, a comparative
juror analysis shows that while Juror No. 12 and Juror
No. 8, a white woman, both had prior jury service, only
Juror No. 12, the lone African American on this panel,
was stricken peremptorily for this reason.
Under Batson and its progeny, the trial judge was
obligated to go beyond simply assessing the truthfulness
of the actual reason given by respondents for striking
Juror No. 12. She was bound instead to further adjudicate
explicitly the question of whether those head movements
truly motivated the peremptory strike. By accepting as
true respondents’ race-neutral explanation about this
juror’s physical movements without further explicitly
adjudicating whether those movements truly motivated
the peremptory strike, the trial court failed to perform its
fundamental Batson obligations. A reconstruction hearing
to adjudicate this issue of respondents’ true motivation
should be ordered; or, if such a hearing would now be
ineffective, a new trial should be ordered.

22

CONCLUSION
For the reasons identified herein, a writ of
certiorari should issue to review the judgment of the
Court of Appeals for the Second Circuit and, ultimately,
to vacate and reverse the judgment and remand the
matter to the district court for that court to determine in
a reconstruction hearing whether respondents’ proffered
race-neutral explanation for striking this lone AfricanAmerican juror on the panel was a pretext for racial
discrimination; or, if the district court determines that it
is no longer possible to effectively make such an
adjudication, a new trial should be ordered; or provide
petitioner with such further relief as is fair and just in the
circumstances of this case.
Respectfully submitted,
Cyrus Joubin
Counsel of Record
43 West 43nl Street
New York, New York 10036
(703) 851-2467
cyrus.ioubin@gmail.com

